//

No.

4—
IN THE
Supreme Court of the United States.

V

\

TIFFANY BECKER,
Petitioner,
v.
JOHN MINKIEWICZ,
Respondent,

!

\

CERTIFICATE OF SERVICE

I, Channa Feiss, do swear or ,1. -re that on this date^A^^^
PETITION FOR A WRIT OF CEETIOBAW
i on each pa^ ^r^b^served^y dep^siting^n'envelope'Gorhainhig^e'above
perSOn "T

11TTnited State! mail properly addressed to each of them and with

\

follows:
\\

Johri Minkiewicz
Hotel Coral and Marina
Can Tiiuana - Ensenada
KM .03. B Final, Zona Playitas, 22869
Ens< nada B.C.
Respondent
I further cer

>v

tify that all parties required to be served have been served.

Cmnna Weiss
12/ N. Hudson Ave.
hs Angeles, CA 90004
iVtlaweiss@gmail.com
/agust 10, 2021

}
ATTORNEY OR PARTY WITHOUT ATTORNEY:

NAME:

STATE BAR NO:

'[T-^Scx<—i.

FIRM NAME:

streetaddress:

POS-040
for COURT USE ONLY

■

—

telephone NO?"7"
-ailaooress:

0-2 *

STATE Gs-_ 2IPC0DE:°U3oAFAXN0:
n

^

ATTORNEY FOR (nan*t

^ C_'Oe^

USKL-V,

SUPERIOR COURT OF CALIFORNIA, COUNTY^?
STREETADDRESS:

W

MAILING ADDRESS:
CITY AND ZIP CODE:
BRANCH NAME:

PlaintifT/Peiitioner
Defendant/Respondent:

^
n
TdJj]

--------------

CASE NUMBER:

C-tvcAXftQ- Kp 7i\n0I3

PROOF OF SERVICE—CIVIL

JUDICIAL OFFICER:

Check method of service (only one):
L J By Personal Service
L J By Messenger Service

I

I By Mail

I

I By Fax

CZ^B;
By Overnight Delivery

DEPARTMENT:

Do not use this form to show service of a summons and
complaint or for electronic service.

i

,

2- My residence or business address is:

:zzf:z:z'3-

'

P ny to this action.

^Wer
'

^-<-jOLr-v~^3w

—I Tbe fax number from which I served the d

<^€_V

C^

"£

ocuments is (complete if service was by fax):
4. On (date):

%-TTU-L»7_\

served the following documents (specify)P-OTtc^
Ucl<_ -\o Proo^a v^v

c</m+u— Qjtc*-cc-W-ar-l
□ The documents are listed in the Attachm aft D
n o roof of Service-Civil (Documents Served) (form POS-040(D))
5. I served the documents on the person
a. Name of^rson served: ~~V ,°r per*ons b®low. as follows:

b-

Complete if service was by personal service, ^ ^ ^
mail, overnight delivery, or messenger service.)
Business or residential address where p
erson was served: V\yVe_ V Coro_\ q,_

Cl I----- 1 (Complete if service was by fax.)
Fax number where person was served:

©.cT3-

Civil (Persons Served) (form POS-Mofp)^6 'nf°rmat,on about Persons served is on the Attachment to Proof of Service—
6. The documents were served by the following means (specify)-

attorney s office, in an envelope or package clearly labeled to identiftTth per®onally’or (b) by leaving the documents at the
individual in charge of the office; or (c) if there was no
^t fyi-h att0rney bein9 served, with a receptionist or an
leaving them in a conspicuous place in the office between the hn^ °?C6 W'th Whom the notice or Papers could be left by
a party, delivery was made to the party or
in the mornin9 and «ve in the evening 2) Fo?
younger ten 18 ysm age betoeen
hours of eigh, |n ^
»™ Pen™ not

Form Approved for Optional Use
Judicial Council of California
POS-040 [Rev. January 1,2020]

PROOF OF SERVICE—CIVIL
(Proof of Service)

------------------------------------------------Page 1 of 3
Code of Civil Procedure, §§1011,1013,1013a,
2015.5; Cal. Rules of Court, rule 2.306
www.courts.ca.gov

r

POS-040
CASE NUMBER:

CASE NAME:

'Sec.Wr

V—t. '
6. b. |

| By United States mail. I enclosed the documents in a sealed envelope or package addressed to the persons at the
addresses in item 5 and (specify one):

(1) |

| deposited the sealed envelope with the United States Postal Service, with the postage fully prepaid.

(2) |

| placed the envelope for collection and mailing, following our ordinary business practices. I am readily familiar with this
business's practice for collecting and processing correspondence for mailing. On the same day that correspondence
is placed for collection and mailing, it is deposited in the ordinary course of business with the United States Postal
Service, in a sealed envelope with postage fully prepaid.
I am a resident or employed in the county where the mailing occurred. The envelope or package was placed in the mail at
(city and state):

c. I

By overnight delivery. I enclosed the documents in an envelope or package provided by an overnight delivery carrier
and addressed to the persons at the addresses in item 5.1 placed the envelope or package for collection and overnight
delivery at an office or a regularly utilized drop box of the overnight delivery carrier,
-p

d. I

I By messenger service. I served the documents by placing them in an envelope or package addressed to the persons at
the addresses listed in item 5 and providing them to a professional messenger service for service. (A declaration by the
messenger must accompany this Proof of Service or be contained in the Declaration of Messenger below.)

e. I

I By fax transmission. Based on an agreement of the parties to accept service by fax transmission, I faxed the documents
to the persons at the fax numbers listed in item 5. No error was reported by the fax machine that I used. A copy of the
record of the fax transmission, which I printed out, is attached.

I declare under penalty of perjury under the laws of the State of California that the foregoing is true and correct.
Date:

Cop, T^xo. rjifq>/}0

<°r

"(TYPE OR PRINT NAME OF DECLARANT)

(SIGNATURE OF DECLARANT)

(If item 6d above is checked, the declaration below must be completed or a separate declaration from a messenger must be attached.)
DECLARATION OF MESSENGER
I

%

V
/

I By personal service. I personally delivered the envelope or package received from the declarant above to the persons at the
addresses listed in item 5. (1) For a party represented by an attorney, delivery was made (a) to the attorney personally; or (b) by
leaving the documents at the attorney's office, in an envelope or package clearly labeled to identify the attorney being served,
with a receptionist or an individual in charge of the office; or (c) if there was no person in the office with whom the notice or
papers could be left, by leaving them in a conspicuous place in the office between the hours of nine in the morning and five in the
evening. (2) For a party, delivery was made to the party or by leaving the documents at the party's residence with some person
not younger than 18 years of age between the hours of eight in the morning and eight in the evening.
At the time of service, I was over 18 years of age. I am not a party to the above-referenced legal proceeding.
I served the envelope or package, as stated above, on (date):

I declare under penalty of perjury under the laws of the State of California that the foregoing is true and correct.
Date:

\
, \

(NAME OF DECLARANT)

POS-040 [Rev. January 1,2020]

►
PROOF OF SERVICE—CIVIL
(Proof of Service)

(SIGNATURE OF DECLARANT)

Page 2 of3

PQS-040
ATTORNEY OR PARTY WITHOUT ATTORNEY;

STATE BAR NO:

FOR COURT USE ONLY

NAM
FIRM NAME:

'

STREET ADDRESS:
CITY:

“'eS^, Sc<Lcx

^oc_

Lo=sr V^vVW

TELEPHONE NO.:
E-MAIL ADDRESS:

STATE: O*'-

“

ZIP CODE:

FAX NO.:

3Vo Sco-%3\o "V 'S&&-

^—^x.^00 . cj>i ^

ATTORNEY FOR (name):

SUPERIOR COURT OF CALIFORNIA, COUNTY OF
STREET ADDRESS:
MAILING ADDRESS:
CITY AND ZIP CODE:
BRANCH NAME:
CASE NUMBER:

Plaintiff/Petitioner:
Defendant/Respondent:

(Ll^CfCZJMD \No ^T25\<\o"V3

H^

JUDICIAL OFFICER:

PROOF OF SERVICE—CIVIL
Check method of service (only one):
I \| .B^Mail
I
I By Personal Service
I
I By Overnight Delivery
I

| By Messenger Service

I

DEPARTMENT:

I By Fax

Do not use this form to show service of a summons and complaint or for electronic service.
See USE OF THIS FORM on page 3.
1. At the time of service I was over 18 years of age and not a party to this action.
2. My residence or business address is:

C_o_ C\c>7f\7_
3. |

| The fax number from which I served the documents is (complete if service was by fax):

4. On (date):

<Vr\-'z_o-Lv
I

I served the following documents (specify):
^Fo<" r'T'^5L__
_-Vo V?tocjCc.<\
O-'oTv
Co(peAcK
Vj-T 1.V cV CccvVvor-c*.c\

'5L

I The documents are listed in the Attachment to Proof of Service-Civil (Documents Served) (form POS-040(D)).

5. I served the documents on the person or persons below, asffollows:
a. Name of person served: '_A0U^ Vo
V-V^_
b. I

\ Incomplete if sen/ice was by personal service, mail, overnight delivery, or messenger service.)
Business or residential address where person was served: \AcAc_\ Ccro^\

c. |

Qo~<~t 'T'.'yoci

| (Complete if service was by fax.)

Vvll-A-

T3

cx^A
—'X^'bc.

os.
V’Vcxo v4c-s

Fax number where person was served:
I

I The names, addresses, and other applicable information about persons served is on the Attachment to Proof of Service—
Civil (Persons Served) (form POS-040(P)).

6. The documents were served by the following means (specify):
a. |

| By personal service. I personally delivered the documents to the persons at the addresses listed in item 5. (1) For a
party represented by an attorney, delivery was made (a) to the attorney personally; or (b) by leaving the documents at the
attorney's office, in an envelope or package clearly labeled to identify the attorney being served, with a receptionist or an
individual in charge of the office; or (c) if there was no person in the office with whom the notice or papers could be left, by
leaving them in a conspicuous place in the office between the hours of nine in the morning and five in the evening. (2) For
a party, delivery was made to the party or by leaving the documents at the party's residence with some person not
younger than 18 years of age between the hours of eight in the morning and eight in the evening.
Page 1 of 3

Form Approved for Optional Use
Judicial Council of California
POS-040 [Rev. January 1,2020]

PROOF OF SERVICE—CIVIL
(Proof of Service)

Code of Civil Procedure, §§ 1011.1013,1013a,
2015.5; Cal. Rules of Court, rule 2.306
www.courts.ca.gov

a

POS-040
CASE NAME:

CASE NUMBER:

x/.
6. b. I

TcIcig'V3

United States mail. I enclosed the documents in a sealed envelope or package addressed to the persons at the
addresses in item 5 and (specify one):

(1) I
(2) |

^

~\cszA o!>$o °cd\\Cefst

deposited the sealed envelope with the United States Postal Service, with the postage fully prepaid.

v®

| placed the envelope for collection and mailing, following our ordinary business practices. I am readily familiar with this
business's practice for collecting and processing correspondence for mailing. On the same day that correspondence
is placed for collection and mailing, it is deposited in the ordinary course of business with the United States Postal
Service, in a sealed envelope with postage fully prepaid.
I am a resident or employed in the county where the mailing occurred. The envelope or package was placed in the mail at
(city and state):

c. I

I By overnight delivery. I enclosed the documents in an envelope or package provided by an overnight delivery carrier
and addressed to the persons at the addresses in item 5.1 placed the envelope or package for collection and overnight
delivery at an office or a regularly utilized drop box of the overnight delivery carrier.

d. I

I By messenger service. I served the documents by placing them in an envelope or package addressed to the persons at
the addresses listed in item 5 and providing them to a professional messenger service for service. (A declaration by the
messenger must accompany this Proof of Service or be contained in the Declaration of Messenger below.)

e. I

I By fax transmission. Based on an agreement of the parties to accept service by fax transmission, I faxed the documents
to the persons at the fax numbers listed in item 5. No error was reported by the fax machine that I used. A copy of the
record of the fax transmission, which I printed out, is attached.

I declare under penalty of perjury under the laws of the State of California that the foregoing is true and correct.
Date:

I.qyio?
-3

(TYPEOR printname OFlSeLARANT)

(SIGNATURE OF DECLARANT)

(If item 6d above is checked, the declaration below must be completed or a separate declaration from a messenger must be attached.)
DECLARATION OF MESSENGER
1

I By personal service. I personally delivered the envelope or package received from the declarant above to the persons at the
addresses listed in item 5. (1) For a party represented by an attorney, delivery was made (a) to the attorney personally; or (b) by
leaving the documents at the attorney's office, in an envelope or package clearly labeled to identify the attorney being served,
with a receptionist or an individual in charge of the office; or (c) if there was no person in the office with whom the notice or
papers could be left, by leaving them in a conspicuous place in the office between the hours of nine in the morning and five in the
evening. (2) For a party, delivery was made to the party or by leaving the documents at the party's residence with some person
not younger than 18 years of age between the hours of eight in the morning and eight in the evening.
At the time of service, I was over 18 years of age. I am not a party to the above-referenced legal proceeding.
I served the envelope or package, as stated above, on (date):

I declare under penalty of perjury under the laws of the State of California that the foregoing is true and correct.
Date:

►
(NAME OF DECLARANT)

POS-040 (Rev. January 1,2020]

(SIGNATURE OF DECLARANT)

PROOF OF SERVICE—CIVIL
(Proof of Service)

Page 2 of 3

PQS-040
STATE BAR NO:

ATTORNEY OR PARTY WITHOUT ATTORNEY:
NAME

FOR COURT USE ONLY

V

FIRM NAME:
STREET ADDRESS:
CITY:

UJesr V\AVs Qs=A

TELEPHONE NO.:

,__ ,

STATE:

_

E-MAIL ADDRESS:

CJoe <Jue_r

ATTORNEY FOR (name):

ZIP CODE:

FAX NO.:

L\cxU_do

SUPERIOR COURT OF CALIFORNIA, COUNTY OF
STREET ADDRESS:
MAILING ADDRESS:
CITY AND ZIP CODE:
BRANCH NAME:
CASE NUMBER:

Plaintiff/Petitioner:
Defendant/Respondent: '

'BecLcj-

CLJkOVTjVo

\e'

JUDICIAL OFFICER:

PROOF OF SERVICE—CIVIL
Check method of service (only one):
I
I By Personal Service
I vxfBy Mail
I , | By Overnight Delivery
I

| By Messenger Service

|

DEPARTMENT:

| By Fax

Do not use this form to show service of a summons and complaint or for electronic service.
See USE OF THIS FORM on page 3.
1. At the time of service I was over 18 years of age and not a party to this action.
2. My residence or business address is:

^

Cs>3. I

I The fax number from which I served the documents is (complete if service was by fax):

4. On (date):

I served the following documents (specify):
-Vo
V-a-oVv
-for- \__e

peVHo--. -&rI

L^rvr

V'ro cee. \ \ v.
cv CcjRVvorrxrn

I The documents are listed in the Attachment to Proof of Service-Civil (Documents Served) (form POS-040(D)).

5. I served the documents on the person or persons below, as follows:
Ci2> »->—A
a. Name of person served:
'TAert-W
-V,
b. | -"T'7Complete if service was by personal service, mail, overnight delivery, or messenger service.)
Business or residential address where person was served:
c. |

y\tAc_ \

C^-cx\

A-

~\

^

r~

| (Complete if service was by fax.)

Fax number where person was served:
I

■—t

\

ocl

I The names, addresses, and other applicable information about persons served is on the Attachment to Proof of Service— 2j0'SV2.
Civil (Persons Served) (form POS-040(P)).
'

6. The documents were served by the following means (specify):
a. |

| By personal service. I personally delivered the documents to the persons at the addresses listed in item 5. (1) For a
party represented by an attorney, delivery was made (a) to the attorney personally; or (b) by leaving the documents at the
attorney’s office, in an envelope or package clearly labeled to identify the attorney being served, with a receptionist or an
individual in charge of the office; or (c) if there was no person in the office with whom the notice or papers could be left, by
leaving them in a conspicuous place in the office between the hours of nine in the morning and five in the evening. (2) For
a party, delivery was made to the party or by leaving the documents at the party's residence with some person not
younger than 18 years of age between the hours of eight in the morning and eight in the evening.
Page 1 of 3

Form Approved for Optional Use
Judicial Council of California
POS-040 [Rev. January 1,2020]

PROOF OF SERVICE—CIVIL
(Proof of Service)

Code of Civil Procedure, §§ 1011,1013,1013a,
2015.5; Cal. Rules of Court, rule 2.306
www.courts.ca.gov

POS-040
CASE NAME:

CASE NUMBER:

6. b. □ETBy United States mail. I enclosed the documents in a sealed envelope or package addressed to the persons at the
addresses in item 5 and (specify one):
(1) | ^ [^deposited the sealed envelope with the United States Postal Service, with the postage fully prepaid.
(2) I

I placed the envelope for collection and mailing, following our ordinary business practices. I am readily familiar with this
business's practice for collecting and processing correspondence for mailing. On the same day that correspondence
is placed for collection and mailing, it is deposited in the ordinary course of business with the United States Postal
Service, in a sealed envelope with postage fully prepaid.
I am a resident or employed in the county where the mailing occurred. The envelope or package was placed in the mail at
(pity and state):

c. I s \ By overnight delivery. I enclosed the documents in an envelope or package provided by an overnight delivery carrier
and addressed to the persons at the addresses in item 5.1 placed the envelope or package for collection and overnight
delivery at an office or a regularly utilized drop box of the overnight delivery carrier. ^
•£_
d. I

I By messenger service. I served the documents by placing them in an envelope or package addressed to the persons at
the addresses listed in item 5 and providing them to a professional messenger service for service. (A declaration by the
messenger must accompany this Proof of Service or be contained in the Declaration of Messenger below.)

e. I

I By fax transmission. Based on an agreement of the parties to accept service by fax transmission, I faxed the documents
to the persons at the fax numbers listed in item 5. No error was reported by the fax machine that I used. A copy of the
record of the fax transmission, which I printed out, is attached.

I declare under penalty of perjury under the laws of the State of California that the foregoing is true and correct.
Date:

4

(TYPE OR PRINT NAME OF DECLARANT)

(SIGNATURE OF DECLARANT)

(If item 6d above is checked, the declaration below must be completed or a separate declaration from a messenger must be attached.)
DECLARATION OF MESSENGER
I

I By personal service. I personally delivered the envelope or package received from the declarant above to the persons at the
addresses listed in item 5. (1) For a party represented by an attorney, delivery was made (a) to the attorney personally; or (b) by
leaving the documents at the attorney’s office, in an envelope or package clearly labeled to identify the attorney being served,
with a receptionist or an individual in charge of the office; or (c) if there was no person in the office with whom the notice or
papers could be left, by leaving them in a conspicuous place in the office between the hours of nine in the morning and five in the
evening. (2) For a party, delivery was made to the party or by leaving the documents at the party's residence with some person
not younger than 18 years of age between the hours of eight in the morning and eight in the evening.
At the time of service, I was over 18 years of age. I am not a party to the above-referenced legal proceeding.
I served the envelope or package, as stated above, on (date):
s'

I declare under penalty of perjury under the laws of the State of California that the foregoing is true and correct.
Date:

(NAME OF DECLARANT)

POS-040 (Rev. January 1,2020]

►
(SIGNATURE OF DECLARANT)

PROOF OF SERVICE—CIVIL
(Proof of Service)

Page 2 of 3

No.

IN THE

Supreme Court of the United States
TIFFANY BECKER,
Petitioner,
v.

JOHN MINKIEWICZ,
Respondent,

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS
Pursuant to Supreme Court Rule 33.1(h), I hereby certify that the
Petition of Certiorari by Tiffany Becker contains 9,845 words, excluding the
parts of the document exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 10, 2021.

V

Tiffany Becker
7958 Sedan Ave.
West Hills, CA 91304
Appellant in Pro Per
August 10, 2021

